                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A-I0020015                                                                 Page 1 of 1



     We received allegations of fraud against a University! from the complainant. 2 The fraud was
     alleged to have taken place in the use of federally funded research. The complainant stated that
     the fraud stemmed from the University's failure to follow its federally mandated research     .
     misconduct policy.

     We contacted the complainant asking for additional information. The complainant provided
     more information. Our review determined that we do not have jurisdiction with respect to the
     complainant's allegations as no NSF funds were used to perform the research.

     Accordingly, this case is closed and no further action will be taken.
